<html>
<title> - INVESTIGATING THE CHINESE THREAT, PART II: HUMAN RIGHTS ABUSES, TORTURE AND DISAPPEARANCES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]








               INVESTIGATING THE CHINESE THREAT, PART II:
                      HUMAN RIGHTS ABUSES, TORTURE
                           AND DISAPPEARANCES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2012

                               __________

                           Serial No. 112-174

                               __________

        Printed for the use of the Committee on Foreign Affairs







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-292 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

















                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           DENNIS CARDOZA, California
MICHAEL T. McCAUL, Texas             BEN CHANDLER, Kentucky
TED POE, Texas                       BRIAN HIGGINS, New York
GUS M. BILIRAKIS, Florida            ALLYSON SCHWARTZ, Pennsylvania
JEAN SCHMIDT, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
BILL JOHNSON, Ohio                   FREDERICA WILSON, Florida
DAVID RIVERA, Florida                KAREN BASS, California
MIKE KELLY, Pennsylvania             WILLIAM KEATING, Massachusetts
TIM GRIFFIN, Arkansas                DAVID CICILLINE, Rhode Island
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Jared Genser, founder, Freedom Now...........................     7
Ms. Rebiya Kadeer, Uyghur democracy leader.......................    18
Mr. Hai Li, Falun Gong practitioner..............................    25
Mr. Bhuchung K. Tsering, vice president, International Campaign 
  for Tibet......................................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Jared Genser: Prepared statement.............................    10
Ms. Rebiya Kadeer: Prepared statement............................    20
Mr. Hai Li: Prepared statement...................................    27
Mr. Bhuchung K. Tsering: Prepared statement......................    37

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    67

 
INVESTIGATING THE CHINESE THREAT, PART II: HUMAN RIGHTS ABUSES, TORTURE 
                           AND DISAPPEARANCES

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    After recognizing myself and my friend, Mr. Berman, the 
ranking member, for 7 minutes each for our opening statements, 
I will recognize 3 minutes for the vice chair and ranking 
member of the Subcommittee on Asia and the Pacific and the 
Subcommittee on Africa, Global Health, and Human Rights. And I 
will, then, recognize other members seeking recognition for 1 
minute.
    We will then hear from our distinguished set of panelists. 
Without objection, all of your written statements will be made 
a part of the record, and members may have 5 days to insert 
statements and questions for the record.
    The Chair now recognizes herself for 7 minutes.
    This hearing is called just 1 day after the conclusion of 
the 17th Session of the U.S.-China Human Rights Dialogue, held 
here in Washington, DC. I have long been an advocate for human 
rights in China and sponsored several measures, including two 
House resolutions focused on two of the issues that we will 
discuss today.
    The first was a resolution I put forward in 2007 that 
expressed, ``The sense of the House of Representatives that the 
Government of the People's Republic of China should immediately 
release from custody the children of Rebiya Kadeer.'' It is so 
wonderful to have you here. The second was a resolution I 
introduced in 2009, ``Recognizing the continued persecution of 
Falun Gong practitioners in China.'' Both of these measures 
garnered the overwhelming support of the House and served to 
underscore the deteriorating human rights situation in China.
    One must wonder when reading the latest State Department 
human rights report on China, what value is there in the so-
called Human Rights Dialogue that recently concluded? The 
report, released on May 24th, noted that over the past year, 
``deterioration in key aspects of the country's human rights 
situation continued. Repression and coercion, particularly 
against organizations and individuals involved in rights 
advocacy and public interest issues, were routine.''
    Congress was told over a decade ago, as some of my 
colleagues will recall, that the granting of permanent, normal 
trade relations, PNTR, to China would lead to economic 
liberalization and, inevitably, to greater political freedom. 
However, Congress was sold a bill of goods back then by the 
White House and multinational corporations. PNTR with China has 
not brought a decline in the human rights abuses in China, 
including torture and regime-arranged disappearances of 
dissidents.
    If anything, credible reports from dissidents, internet 
users, underground churches, the Uyghurs, the people of Tibet, 
and the North Korean refugees all indicate that things have 
gotten worse when compared to a decade ago. So, PNTR has proven 
to be no elixir to fix China's endemic human rights abuses.
    In 1999, just a year before PNTR was passed, the Chinese 
regime began its relentless campaign of torture and suppression 
against the spiritual movement known as Falun Gong. The 
infamous Six-Ten Office, a secret unit as brutal as the KGB, 
was established at that time to hunt down, persecute, torture, 
and even kill Falun Gong practitioners. We will be hearing from 
one of our witnesses, Mr. Li, today on that fearsome and 
ongoing persecution. It is estimated that one-quarter to one-
half of all detainees in China's infamous reeducation-through-
labor camps are Falun Gong practitioners.
    A Chinese dissident, Liu Xiaobo, the only imprisoned Nobel 
Peace Prize winner in the world, once famously said, ``Freedom 
of expression is the foundation of human rights, the source of 
humanity, and the mother of truth.'' Freedom of expression is, 
of course, completely lacking behind the bamboo curtain in 
Communist China, but the tentacles of Chinese security reach 
far beyond its own borders, at times even surprisingly First 
Amendment rights to free speech in our own country.
    The noted Chinese human rights advocate and blind attorney, 
Mr. Chen Guangcheng, had originally accepted an invitation to 
appear before this committee as a witness today. However, he 
subsequently declined to appear because of his reported fear of 
reprisal against his family back in China, especially against 
his nephew who is under arrest.
    We have with us another witness who also left behind family 
members in China. Uyghur democracy advocate Rebiya Kadeer, who 
is here with us today, has had her children severely beaten, 
imprisoned, and placed under house arrest by security forces. 
One of those beatings took place in 2006, when a staff 
delegation from this committee visited the Uyghur homeland, but 
had to cut short its visit because of the attacks on the Kadeer 
children.
    Chinese authorities, through torture and coercion, have 
even forced some of Ms. Kadeer's children to demonize her in 
statements accusing her of ``ethnic splitism.'' These same 
Chinese authorities also recently forced one of Ms. Kadeer's 
sons to sign over her business property in China. Yet, this 
courageous woman has still come forward today to testify before 
our committee today.
    Our witnesses will describe for us the particularly harsh, 
repressive measures that are being directed against the Uyghur 
and the people of Tibet. We will also hear of the use of a 
relatively new weapon in Beijing's arsenal for human rights 
repression: That is the extra-judicial disappearance of noted 
dissidents. In today's China, one does not need to wear an 
invisibility cloak in order to suddenly vanish into thin air 
without formal charges, without a trial, without due process. 
Pro bono lawyer and democracy advocate Jared Genser will 
address the newest Draconian measures which Beijing has 
implemented to suppress and terrorize its citizens.
    A Chinese proverb holds that, ``To violate the law is the 
same crime in the emperor as in the subject.'' But in China 
today, there is no such accountability. A human rights dialogue 
with the Communist regime in Beijing matters for little until 
the rule of law is genuinely rooted in Chinese soil. Only then 
will the Communist Mandarins in Beijing be held accountable for 
more than half a century of its regime's crimes.
    Their litany of suppression includes the mass starvation of 
the Great Leap Forward, the Red Guard horror of the Cultural 
Revolution, the bloody massacre at Tiananmen Square, and 
today's continued repression of both political dissidents and 
religious believers. Until there is concrete, verifiable, 
genuine political reform in China, all we should say in our 
human rights dialogue with Beijing is, ``Deliver us from 
evil.''
    Now I turn to my friend and distinguished ranking member 
for his opening remarks.
    Mr. Berman. Thank you very much, Madam Chairman.
    I am not going to use my entire time because I agree with 
so much of what you have already said. But thank you for 
calling today's hearing and giving the committee an opportunity 
to focus its attention on the human rights situation in China.
    We are all aware that the Chinese Government's record on 
human rights and the rule of law remains deplorable. Chinese 
authorities remain hyper vigilant about tamping down anything 
that smacks of political or social dissent, including criticism 
of the government and exposure of official wrongdoing. In 
addition, the Chinese Government continues to promote policies 
that threaten the culture, language, and traditions of 
Tibetans, Uyghurs, and other ethnic minorities.
    China is the world's second-largest economy and has 
experienced remarkable economic growth in recent decades. Yet, 
it remains one of the worst countries for political rights and 
civil liberties, as measured by Freedom House. In fact, China 
continues to spend more on internal security than it does on 
its rapidly-increasing military, a clear indication that the 
government fears and distrusts its own people.
    As the government seeks to maintain stability with an iron 
fist, there are growing signs of stress in Chinese society. 
Reports of rural instability are rising. Protests about 
corruption by government officials, environmental degradation, 
and economic exploitation are on the increase. Tibet has seen 
nearly 50 self-immolations to protest Chinese rule, and there 
are reports of unrest in the Uyghur areas.
    The Chinese leadership, which is focused primarily on 
maintaining power, clearly doesn't understand that it is in 
China's self-interest to develop a society based on respect for 
human rights and the rule of law. But they ignore the lessons 
of history at their peril. At some point, I am confident that 
the Chinese people will say, ``Enough,'' and chart a new course 
for the Middle Kingdom.
    I thank the witnesses for appearing today. I look forward 
to your testimony and the chance to hear from you and answering 
questions.
    Thank you.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman.
    And now, we are honored to hear from the chairman of the 
Subcommittee on Africa, Global Health, and Human Rights, Mr. 
Smith, who has been a champion on the need for human rights 
accountability in China.
    Mr. Smith. Thank you very much, Madam Chair.
    I want to welcome a very distinguished panel of heroes, men 
and women who have with their own lives labored so hard on 
behalf of the people of China to bring human rights to all 
parts of China. With Rebiya Kadeer, to the autonomous region of 
Tibet, she has done unbelievable work at great sacrifice to 
herself and her family on behalf of the Uyghurs.
    To all of you, welcome.
    In this morning's USA Today, there is a cover story written 
by Calum MacLeod, and the headline is ``Forced Abortions, 
Broken Hearts.'' It begins by saying:

          ``As supervisor of family planning enforcement in 
        Fujian Province's Daji township, Wang Jinding says he 
        knows the best way to kill unborn babies of parents who 
        want to keep them. `The key point is to separate the 
        pregnant woman from her family members.' That is 
        exactly what Wang did in a case in April, enforcing the 
        Communist Party's rules on family size. He had eight 
        government workers kidnap a pregnant Pan Chunyan, 31, 
        from her grocery store in Fujian city on the southern 
        coast.
          ``Her husband, Wu, was frantically raising the $8,640 
        fee required for a third child. Wu and a dozen 
        relatives fought to try to see Pan at the government 
        building where she was held.
          ``Rather than granting the family more time, Wang 
        organized a police-led convoy of seven vehicles to take 
        Pan to a hospital. There, Pan--who was 8 months 
        pregnant--was injected with chemicals to kill the 
        child. She delivered a fully-formed, but dead, son. `My 
        wife only got a glance at the child, her heart broke, 
        and she cried loudly, because the whole body was black 
        and blue and the skin on the face had peeled,' Wu says. 
        `This is a life that had no time to look at this 
        beautiful world with eyes open.' ''

    Madam Chair, you know and I know, and this committee knows, 
but, unfortunately, far too many people do not take it 
seriously, the one-child-per-couple policy has had a 
devastating impact on the women of China. It has now affected 
virtually every woman in China. Brothers and sisters are 
illegal in the People's Republic of China and have been since 
1979.
    Regrettably, groups like the U.N. Population Fund have had 
a hand-in-glove relationship for over three decades with the 
hardliners in Beijing, enforcing even in the counties where 
they do business the one-child-per-couple policies. These are 
crimes against women that have no precedent in human history, 
and the toll on children has been enormous.
    On torture, on trafficking, on religion freedom, on 
workers' right, China gets a failing grade. This hearing, 
hopefully, will shed additional light on the abuse by the 
government of its own people. My hope is that reform, fomented 
by the people that are here, their leaders, the people inside 
of China who have had enough, will lead to freedom and 
democracy and, hopefully, a new dawn for the people of China.
    And I thank you.
    Chairman Ros-Lehtinen. Thank you, Mr. Smith. Well said.
    Mr. Connolly of Virginia, we are pleased to introduce you 
for your opening statement.
    Mr. Connolly. I thank you, Madam Chairman, and I welcome 
our panel.
    I join with my colleagues in expressing deep concern about 
the practice of human rights in the People's Republic of China. 
Whether it be Tibet, whether it be family-planning issues, 
whether it be the free exercise of religion free of an 
appearance from the state, China has a ways to go. If China 
wants to be fully accepted into the family of nations, of 
developed nations, China is going to have to wrestle with this 
issue of respect of human rights. Mature governments are able 
to do that.
    It is a false choice to say we can either pursue economic 
development or pluralist democratic freedoms, but not both. 
That is antithetical to not only American values, but we 
Americans believe it is antithetical, frankly, to human 
aspiration around the planet.
    We want to see China develop. We want to see China become a 
full-fledged partner in the global arena, but it must address 
these human rights issues, and the United States must continue 
to be a clarion voice in advocacy for human rights.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Rohrabacher is recognized, the chairman of the 
Subcommittee on Oversight and Investigations.
    Mr. Rohrabacher. Thank you very much, and thank you for 
holding this hearing.
    I want to apologize. There is a hearing on water, and I 
come from California and water is very important to us there. I 
am going to run back and forth between these hearings, but that 
is sometimes what we have to do here in Congress. That does not 
diminish at all. I mean, water is essential for human life, but 
so is freedom.
    And today, humankind's greatest hope for a more peaceful 
world and a freer world is in the hands of the people, the 
suffering people of China. If the suffering people of China 
continue to be repressed, the chances of peace are diminished 
because dictatorships, like Beijing, become aggressive and 
become threats not only to their own people, but to other 
people as well.
    Already we see in Taiwan where there are people today from 
the Falun Gong sitting in front of President Ma's palace 
because a Taiwanese resident has been arrested on the mainland 
for wanting to mention the Falun Gong. He has been arrested, 
and President Ma in Taiwan is saying nothing, is trying not to 
ruffle anybody's feathers. Well, that is what is going to 
happen around the world if we allow this powerful dictatorship 
in Beijing to continue without any type of protest from us to 
repress their own people, whether we are talking about the 
Falun Gong, the Uyghurs, the people of Tibet, or the women 
throughout China who are suffering from the forced murder of 
every one of their children except for the first one. These are 
horrific crimes against the people of China and they are crimes 
against humanity as well.
    Thank you, Madam Chairman, for making this hearing and this 
body representative of those values.
    Chairman Ros-Lehtinen. Thank you very much, sir.
    Mr. Royce, the chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade, is recognized.
    Mr. Royce. Thank you, Madam Chair.
    There was an article I saw in The Wall Street Journal that 
reported that there were 180,000 protests across China, four 
times the tally of a decade ago. And clearly, people across 
China are speaking out, are seeking to have more freedom of 
expression, freedom of religion.
    One of my hopes is that some of the broadcasting that we do 
with Radio Free Asia, the broadcasting that is now done in all 
of the various dialects spoken across China, is an effective 
surrogate radio that will allow people access to more 
information. I have had an opportunity to listen to some of 
those broadcasts with a translator and even to be on a few 
shows. It is very interesting to hear people call in from 
across China and see the desire for change, the desire for more 
freedom.
    My hope is that--and we just had legislation which I 
authored last year for a permanent extension of Radio Free 
Asia--it is my hope that over time there is an evolution across 
China as people become more and more familiar with the idea and 
ideals of tolerance and political pluralism, and the respect 
for religious liberty. I think this would be a way over time 
for China internally to see the type of change which would 
bring about better hope for the Chinese people. To do that, we 
should be thinking about how to communicate better and how to 
allow the Chinese diaspora the ability and the platform to 
carry on that dialogue with their countrymen and women, and 
continue to push these ideals.
    I thank the witnesses for appearing today, and I yield 
back, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Royce. 
Thank you for your statement.
    And now, the Chair is pleased to welcome our witnesses. 
First, we welcome Mr. Jared Genser, the founder of Freedom Now, 
an NGO that works to free individual prisoners of conscience 
through focused legal, political, and public relations advocacy 
efforts. His human rights clients have included former Czech 
Republic President Havel, Nobel Peace Prize winners Aung San 
Suu Kyi, Liu Xiaobo, Desmond Tutu, and Eli Weisel. Welcome.
    Next, we welcome Rebiya Kadeer, President of the World 
Uyghur Congress from 1999 to 2005. In response to her activism, 
Ms. Kadeer was imprisoned for allegedly stealing state secrets. 
At the World Uyghur Congress, she has continued to advocate for 
greater autonomy for the Uyghur people.
    Next, we welcome Mr. Hai Li, a Falun Gong practitioner, a 
former official of the Chinese Ministry of Foreign Affairs. Mr. 
Li was detained and imprisoned by Chinese authorities four 
times, including a 7-year imprisonment during which he was 
brutally tortured. After being released, Mr. Li and his family 
immigrated to the United States on temporary visas and are now 
applying for political asylum. Welcome, Mr. Li.
    And finally, we welcome Bhuchung Tsering, a Vice President 
for Special Programs for the International Campaign for Tibet, 
which seeks to raise awareness of the Chinese Government's 
unjust treatment of the people of Tibet. Mr. Tsering was born 
in Tibet, but his family fled to India in 1960, in wake of the 
Chinese Communist occupation. He had worked as a reporter for 
the Indian daily Indian Express, as editor for The Tibetan 
Bulletin, the official journal of the Tibetan Government, and 
for the Tibetan Government in Exile.
    Without objection, as I said, your written statements will 
be inserted into the record.
    Mr. Genser, we will begin with you.
    Welcome to all.

      STATEMENT OF MR. JARED GENSER, FOUNDER, FREEDOM NOW

    Mr. Genser. Good morning, Madam Chairman and Ranking Member 
Berman, and members of the committee. And thanks for inviting 
me to speak today.
    As mentioned, I founded Freedom Now, an international legal 
advocacy organization that works to free prisoners of 
conscience around the world. Among my clients include Nobel 
Peace Prize Laureate Liu Xiaobo, his wife Liu Xia, and 
prominent Chinese rights lawyer Gao Zhisheng.
    My comments today will address these cases, the ways in 
which their ongoing detention violates both domestic and 
international law, and what lessons we can draw from these 
cases, and what I believe the U.S. Government should do on 
behalf of these individuals and others who are similarly 
situated.
    Dr. Liu Xiaobo, perhaps China's most prominent prisoner of 
conscience and the world's only imprisoned Nobel Peace Prize 
Laureate, is a respected intellectual with a lengthy history of 
putting his own liberty at risk to defend the universal values 
of freedom and democracy. I don't have the time today to review 
his whole career, but focusing on what landed him in prison 
most recently.
    Just days before his role in authoring Charter '08, and it 
was going to be made public in December 2008, Chinese police 
arrested him and held him incommunicado for 3 weeks without 
charge or access to a lawyer and, then, subsequently, held for 
him an additional 6 months as well.
    His trial on inciting subversion lasted only 2 hours, and 
the defense was given literally 14 minutes to present its case. 
Ultimately, he was convicted and sentenced to 11 years in 
prison.
    In a demonstration of the moral force of his character, 
which would later lead the Nobel Prize Committee to award him 
the Peace Prize, he said after that conviction, ``I have long 
been aware that when an independent intellectual stands up to 
an autocratic state, step one toward freedom is often a step 
into prison. Now I am taking that step; and true freedom is 
that much nearer.''
    Hours after he won the award, Chinese authorities isolated 
Liu Xia from the outside world and placed her under house 
arrest. Some 22 months later, she remains under house arrest 
without charge, without trial, without any legal process 
whatsoever. Her only ``crime'' is having been married to a 
Nobel Peace Prize Laureate.
    I am pleased that we were able to prevail in cases that we 
brought on their behalf to the United Nations Working Group on 
Arbitrary Detention, which found that they are being held in 
violation of international law and called for their immediate 
release.
    But perhaps most shocking is the fact that in those paper 
exchanges with the Chinese Government they actually claimed 
that Liu Xia was under no legal restriction, which is either a 
flagrant lie or a brazen admission that, in fact, they are 
holding her illegally.
    The government also refuses to release Gao Zhisheng, a 
prominent human rights lawyer, who has been repeatedly 
detained, disappeared, and tortured by the Chinese Government 
for his work defending the rights of others. His travails began 
in 2006 and, ultimately, he was repeatedly disappeared and 
tortured. We previously won his case before the United Nations 
Working Group on Arbitrary Detention as well.
    And this past December, he was reappeared, when the Chinese 
Government announced that they have revoked his probation, 
which was scheduled to expire within days, and it said it would 
imprison him for 3 more years under the original inciting 
subversion charges that had been imposed against him in 2007. 
Needless to say, the notion that Mr. Gao could have violated 
the terms of his probation while the government held him in 
secret detention is at best farceable, and we have a new 
submission to the United Nations pending, and we expect a 
ruling on the case in September.
    Of particular concern is, of course, the PRC's response to 
specific complaints about their disappearing Gao and numerous 
others in the country by their trying to legalize 
disappearances through an act of the National People's 
Congress, which is in flagrant violation of China's obligations 
under international law.
    The Chinese Government claims it wants to engage in 
dialogue on human rights in the spirit of mutual cooperation, 
but, ultimately, it refuses to do so. And any dialogue that 
takes place, including the one this past week, ultimately, as I 
have heard reported repeatedly, consists of a series of 
sequential monologs.
    In public, the government frequently sticks to implausible 
and offensive talking points, that these cases are being 
handled in accordance with Chinese law. On other occasions, 
such as those with Liu Xia and Mr. Gao, it simply lies with the 
expectation that others will just move on to talk about other 
things.
    In my view, the only remaining approach is to push back and 
press the government privately and publicly and unilaterally 
and multilaterally to address violations of Chinese and 
international law. While broad and systemic change is required, 
there is no substitute for addressing specific cases where the 
treatment of individuals deviates from existing laws. By 
definition, if we can secure the release of these people who 
are most seriously oppressed, we can create greater space for 
them to operate and imbue others with the confidence that they 
can conduct their internationally-protected activities.
    If I can just conclude briefly with three final 
recommendations, first, President Obama and Secretary Clinton 
need to personally engage on Chinese human rights cases and 
make full use of the bully pulpit, something they have only 
done on rare occasions. Chen Guangcheng's case is not an 
example that can be followed. The circumstances of it were 
quite unique. And China's backsliding on rights should have 
long such merited a change in tactics by this administration 
and a more proactive and public approach.
    For example, President Obama could send a very important 
message to the Chinese Government by meeting with Gao 
Zhisheng's wife, Geng He. Such an action with be particularly 
appropriate, given our Government owes a special obligation to 
his family, who we provided refugee status in the United 
States. He could also organize a group of foreign leaders to 
publicly call on the Chinese Government to release Liu Xiaobo.
    Second, the Congress could adopt a non-binding resolution 
highlighting a host of different cases and consider taking more 
aggressive measures, given China's intransigence, such as 
awarding Liu Xiaobo a Congressional Gold Medal.
    Lastly, it is my view that the administration and the 
Congress should look at more substantial multilateral efforts 
directed at the Chinese Government. There are definitely no 
easy solutions to transform China's human rights record. We 
have to be persistent and vigilant, but it is my view that the 
only way that we are going to achieve progress is by responding 
to their tactics with equally-aggressive tactics, both publicly 
and privately, unilaterally and multilaterally, whatever is 
necessary to get the message across to change their behavior.
    Thank you.
    [The prepared statement of Mr. Genser follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much.
    Ms. Kadeer, we welcome you, and I know that we have a 
translator who will say it in English. Thank you very much, 
Ma'am.

    STATEMENT OF MS. REBIYA KADEER, UYGHUR DEMOCRACY LEADER

    Ms. Kadeer. First, I would like to thank Madam Chairman 
Ros-Lehtinen and Ranking Member Berman, and also the members of 
the committee, for inviting me to speak today.
    I believe this hearing is very important because it is 
being held at a time when the U.S. and China have just 
concluded the Human Rights Dialogue.
    Because of time, my assistant will read my statement.
    Since the violent suppression of the Uyghur protesters by 
Chinese security forces in East Turkestan's capital of Urumchi 
in July 2009, the Uyghurs have experienced an intense period of 
human rights violations. The unrest in 2009 has led to the 
implementation of policies in the region that have not only 
engendered an atmosphere of fear, but have also accelerated the 
assimilation of the Uyghurs and their homeland into a greater 
Han China.
    This month marked 3 years of intimidating security 
measures, swift judicial procedures, and countless 
disappearances. Human Rights Watch describes enforced 
disappearances as ``serious violations of international human 
rights law'' and the Chinese Government has been continuing 
this practice among Uyghurs without fear of censure from the 
international community. In a report focused on Uyghur 
disappearances after July 2009, Human Rights Watch states that 
43 disappearances documented were ``just the tip of the 
iceberg.'' Many more, in fact, have disappeared since July the 
5th.
    Deaths in custody of Uyghurs allegedly involved in the 
unrest have also been reported. Noor-ul-Islam Sherbaz, a 17-
year-old Uyghur boy who was sentenced to life in April 2010 
after only a 30-minute trial, was found dead in December 2011. 
Before his death in prison, his mother visited him in prison 
and saw physical abuse by the prison guards.
    State retribution of Uyghurs allegedly involved in the 
unrest has been enacted in the Chinese courts, and the process 
has been rapid. Twelve months after the unrest, 24 Uyghurs were 
sentenced to death and eight of them were a death sentence with 
a 2-year reprieve. Only 4 months after the unrest, eight Uyghur 
men were executed without due process. For these eight men, all 
of the following happened within the span of less than 1 month: 
They were tried, convicted, sentenced, their sentences were 
upheld by the Xinjiang Higher People's Court and the Supreme 
People's Court of China, and they were executed.
    In May 2010, the central government convened a Xinjiang 
Work Forum, chaired by the Chinese President Hu Jintao, that 
mapped out the development of East Turkestan. The Work Forum 
was prompted in large part by the tacit acknowledgment on the 
part of Chinese officials that preceding policies in the region 
had exacerbated the 2009 tensions in the region.
    But the policies that followed did not address the root 
cause of the July 2009 unrest and the legitimate grievances of 
the Uyghur people. Instead, they only focused on the economy, 
only on the resource extraction, which further exacerbated the 
tensions in East Turkestan.
    Work Forum policies also continued the pattern of bringing 
more Han Chinese to East Turkestan and furnishing them with 
economic opportunities unavailable to the Uyghurs. This month 
the Chinese Government announced a plan to formally grant 
residence to 6 million Chinese people floating in East 
Turkestan.
    Chinese authorities have long targeted religious freedom 
among the Uyghurs. A crackdown on our religion has been in 
force in weeks prior to and after the third anniversary of the 
July 2009 arrest. House-to-house searches in the Gujanbagh 
neighborhood of Hotan were announced in June, in early June. 
This followed the police raid of an ``illegal'' religious 
school for children in Hotan that injured 12 Uyghur children, 
and also the death of a Uyghur child in police custody in 
Korla.
    And also, in the month of Ramadan, now the Chinese 
Government enacted stringent religious crackdown on the 
Uyghurs. After July 2009, the Chinese Government also pressured 
my family members, my children, on my own China's national TV 
to denounce me and also pressured my grandchildren to write 
letters to denounce me.
    If I may just conclude with a few recommendations to the 
Congress: First, I would like to urge the U.S. Congress to urge 
the Chinese Government to account for the number and the 
whereabouts of the Uyghurs detained and disappeared since the 
July 5th unrest. Second is the Chinese Government should cease 
the arbitrary detention, arrest, torture, and extrajudicial 
execution of Uyghurs in East Turkestan. The Chinese Government 
should also stop the execution of Uyghur political prisoners. 
Political executions mostly take place in East Turkestan.
    Also urge the Chinese authorities in East Turkestan to 
abide by China's constitution and the Regional Ethnic Autonomy 
Law. And urge the Chinese officials to release my two 
imprisoned sons, Alim and Ablikim, to the United States. And 
also, pass, if possible, legislation requiring the State 
Department to deny visas to Chinese officials involved in the 
violation of human rights, not only of the Uyghurs, but all, to 
enter the United States.
    And last, but not least, to pass legislation in defense of 
Uyghur people's fundamental human rights, culture, religion, 
language, and identity.
    Thank you.
    [The prepared statement of Ms. Kadeer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much for those 
recommendations.
    Mr. Li?

        STATEMENT OF MR. HAI LI, FALUN GONG PRACTITIONER

    Mr. Li. Good morning, ladies and gentlemen, Honorable 
Members of Congress.
    I would like to thank Chairwoman Ros-Lehtinen for holding 
this important hearing and inviting me to participate.
    I began to practice Falun Gong in 1995. I found that the 
principles of truthfulness, compassion, and tolerance that 
Falun Gong taught people to follow was just how I wanted to 
live my life.
    In 1997, I joined the Ministry of Foreign Affairs and its 
Department of Treaty and Law. In July 1999, our lives were 
turned upside-down when Jiang Zemin became jealous and fearful 
of Falun Gong's popularity. Between 1999 and 2012, I was 
detained four times, with the longest over 7 years.
    I would like to focus my remarks on a few key points. My 
written testimony has a multitude about what I experienced and 
witnessed.
    One, the persecution is still brutal, lawless, pervasive, 
reaching every segment of society. Millions of Falun Gong 
practitioners continue to live in that nightmare that I 
survived and escaped.
    In November 2002, plain clothes police abducted me while 
distributing video discs about the truth of Falun Gong. The 
officers didn't take me to a police station, as required by 
law, but to a hotel outside Beijing. They asked my address, but 
I refused to tell them to protect other participants. They 
kicked me, punched me, and then they brought out electric 
batons. They shot my neck, my palms, my genitals, and other 
sensitive body parts. The pain was unbearable. I couldn't walk 
for a few days.
    In April 2004, Beijing's No. 2 Intermediate People's Court 
put me and eight others on trial for distributing video discs. 
It was a total sham. I was sentenced to 9 years and sent to 
Qianjin prison. Please be aware only after 8 months did my 
family know that I had been arrested, and they had no idea 
about the trial, either. I was in prison until May 2010. When I 
left, 60 to 70 Falun Gong practitioners were still there. Now 
three other prisons and labor camps hold Falun Gong 
practitioners just in Beijing and hundreds of other camps exist 
around the country.
    Two, the Communist Party's persecution is to transform 
Falun Gong practitioners. What is transformation? At the 
prison, they had a special little-known method to transform 
Falun Gong practitioners. They didn't let me sleep much and 
forced me to sit upright without moving on a tiny stool with my 
knees closed, my head on my knees, and I sat there for 12 to 20 
hours a day. When I sat there, guards came in to threaten me 
and curse Falun Gong. And they hadn't let me use the bathroom.
    After a few weeks, I couldn't bear it anymore. I gave in; I 
signed the papers denouncing Falun Gong, even though I knew in 
my heart that Falun Gong is good. But I wasn't confident that I 
could endure 9 years of torture.
    Even after I signed it, they didn't leave me alone. They 
made me write a ``thought report'' every day. That is 
transformation. It made me feel hopeless, defeated, weak, and 
hating myself. I felt like a walking zombie.
    Three, despite the Communist Party's best efforts, the 
persecution is failing. Eighty percent of Falun Gong 
practitioners start practicing again once they are released, as 
I did. That terrifies the Communist Party.
    I also noticed a big difference in people's attitudes in 
2010 compared to 2002. More and more people really hate the 
Communist Party and aren't afraid to say so. As the U.S. 
Department of State reports, there is a horrific organ 
harvesting of Falun Gong practitioners taking place in China 
now, and we have also noticed that the Chinese public are 
speaking out to defend Falun Gong's rights by signing petitions 
or using fingerprints to show their support and solidarity with 
Falun Gong. So, I feel that, despite the money and the brute 
force becoming part of censorship and repression, it is losing 
the true battle for the hearts and minds of the Chinese people.
    If I may conclude with the last point, as the United States 
Government thinks about how to improve human rights in China, I 
hope you can keep this in mind: If we truly want to free China, 
we need to free Falun Gong. So, what can the U.S. Government 
do? The public condemnation of the persecution of Falun Gong, 
including by President Obama himself, would be a strong start.
    Thank you again for inviting me to participate.
    [The prepared statement of Mr. Li follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much for sharing that 
harrowing experience with us, Mr. Li. Thank you.
    Mr. Tsering? Thank you.

     STATEMENT OF MR. BHUCHUNG K. TSERING, VICE PRESIDENT, 
                INTERNATIONAL CAMPAIGN FOR TIBET

    Mr. Tsering. Thank you, Madam Chairman, Congressman Berman, 
and members of the committee.
    China aspires to be a superpower that would want to abide 
by universally-accepted norms. I would like to raise the 
following matters regarding Tibet to see whether China is able 
to meet that expectation: Violation of Tibetan rights 
subsequent to the successive self-immolations in Tibet; 
interference in Nepal's internal affairs and pressuring 
Nepalese officials to clamp down on Tibetans in Nepal; usage of 
Confucius Institutes to spread propaganda and shut down 
academic discourse in Tibet; and the possibility of regional 
conflict because of how it handles usage of Tibetan water.
    With the most recent self-immolation on July 17th, there 
have been 44 Tibetans who have self-immolated since 2009. Out 
of 44, 33 are confirmed to have died and 11 are either missing 
or said to be hospitalized. Now the numbers don't include those 
Tibetans who have committed self-immolation outside of Tibet or 
some whose information we are still trying to confirm.
    Madam Chairman, I would like to seek your consent to put 
their names and the information----
    Chairman Ros-Lehtinen. Without objection.
    Mr. Tsering [continuing]. Relating to the human rights in 
Tibet for 2012 in the record.
    Instead of addressing the genuine grievances of the Tibetan 
people, the Chinese authorities have responded to the self-
immolations by increasing restrictions, torturing members of 
the self-immolater's family or their acquaintances, and taking 
several into custody without any judicial process.
    We welcome the China-U.S. Human Rights Dialogue that has 
just concluded yesterday, but the International Campaign for 
Tibet believes that the State Department bears the burden of 
proving that these dialogues are more than ritualized 
exercises, and that the United States should be clear about 
what improvements the Chinese should deliver in Tibet and what 
the response will be if they do not.
    In April, the International Campaign for Tibet released a 
major report about ``60 Years of Misrule,'' China's cultural 
genocide in Tibet. This shows that there is a systematic effort 
to replace organic Tibetan culture with a state-approved 
version to suit the Communist Party's objectives. The Chinese 
leaders seek stability in Tibet, but they strive to achieve it 
through an iron fist rather than an outstretched hand.
    During his visit to Washington, DC, last week, the Tibetan 
leader Kalon Tripa Lobsang Sangay said, ``If Tibet is granted 
autonomy, that could be a catalyst for moderation of China 
because if the Chinese Government grants autonomy to Tibetans, 
for the first time they are accepting diversity within and 
accepting a distinct, if not different, people.''
    From the Chinese perspective, Tibet is the loss-leader for 
Beijing because they say they have spent lots amount of money 
for Tibet. But if Chinese leaders were to give Tibetans the 
voice in their own affairs and a stake in their own future, 
Tibetan leaders would be more economically self-sustained.
    I want to go to the situation in Nepal. The Tibetan 
refugees transit through Nepal as they fled persecution at home 
and toward freedom in India or beyond. Unfortunately, the 
Chinese authorities interfere in Nepal's internal affairs and 
export China's abuses of Tibetans into Nepal. Tibetans trying 
to flee Nepal today have to face great suffering at the hands 
of Nepalese security authorities.
    I am trying to condense here because of the time factor.
    We have seen reports and heard anecdotal evidence about 
usage of the Confucius Institutes. Last year, the International 
Campaign for Tibet requested a university to provide us 
information about Tibet from the Confucius Institute, and what 
they provided us was Chinese Government official propaganda.
    If the water resources in Tibet are being misused by the 
Chinese, it will have grave consequences for the future of the 
world and immediate risk for the neighboring countries.
    Now our recommendations are: First, that Congress should 
send a strong message by passing House Resolution 609 on Tibet. 
The Tibetan Policy Act has to be strengthened. The U.S. should 
seek reciprocity from the Chinese Government for information 
access and for access for diplomats. And the human rights 
dialogues should be followed up by Congress asking the 
Assistant Secretary to publicly testify about what the United 
States has done on human rights.
    Thank you so much.
    [The prepared statement of Mr. Tsering follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              

    Chairman Ros-Lehtinen. Thank you. Thank you so much to each 
and every one of you for excellent testimony.
    Given your great expertise on this terrible issue of human 
rights violations in China, I would like to ask these three 
questions: What value do you see in the ongoing dialogue or 
monolog, as one witness called it, between the United States 
and China? Secondly, do you think that this administration in 
its relation with Beijing places a priority on advancing human 
rights in China? And thirdly, do you believe the human rights 
situation in China has improved or deteriorated in the 12 years 
since Congress approved PNTR for China?
    If we could begin with Mr. Genser?
    Mr. Genser. Thank you, Madam Chairman.
    Let me try to answer your three questions as quickly and as 
best as I can.
    First, your question was, what is the value of the ongoing 
dialogue? On the one hand, I think dialogue is necessary. We 
need to be able to convey to the Chinese our feelings. On the 
other hand, the series of human rights dialogues that we have 
had are, as I mentioned before, sequential monologs, and the 
Chinese would like to speak at 100,000 feet about broad 
developments in various areas. We tend to want to see 
improvement in specific cases.
    And so, it seems to me that the main way that we need to 
improve the dialogue--and I do think that we have to continue 
it; I think we have no choice but to engage with China--is by 
imposing benchmarks, timelines, and consequences. Without any 
accountability coming out of these dialogues, then they are 
fruitless and they are pointless. And I think that we need to 
move in that direction.
    In terms of how the administration has or has not made 
human rights with China a priority, unfortunately, I think at 
the highest levels it has not been a priority. I think that, of 
course, any administration is not monolithic. I would single 
out Mike Posner, the Assistant Secretary for Democracy, Labor, 
and Human Rights, as doing a yeoman's job within the 
Department, but, of course, he is a number of levels down from 
the Secretary. He has been public and outspoken. He has raised 
cases privately. I think he has been very aggressive and great.
    But, at the end of the day, we need the leadership from the 
President and the Secretary of State. While on a handful of 
occasions they have raised China human rights publicly, and I 
know from reports that I have received that they have also 
raised it privately, by definition, and to answer your last 
question, I think that the situation in Beijing and in China in 
the last several years has declined in terms of the human 
rights situation. And therefore, whether or not you agree with 
how the administration is handling Chinese human rights, one 
has to conclude that a change in tactics is doing to be 
required because human rights in China is moving in the wrong 
direction. And that is precisely what I would like to see 
happen.
    Chairman Ros-Lehtinen. Thank you very much.
    Ms. Kadeer?
    Ms. Kadeer. Yes, since the U.S. Congress granted China the 
PNTR status for the past 12 years, and also due to the rise of 
China's economy, China became more confident in dealing with 
Uyghurs and other groups, especially in arbitrary arrest, 
torture, and even executions. So, the situation since China got 
PNTR has become far worse than before. And especially in the 
past 3 or 4 years, the extrajudicial killing of Uyghurs has 
dramatically increased.
    In my testimony, I state that the Chinese Government 
granted residence to 6 million floating Chinese population. 
That is in addition to the Chinese residents already immigrated 
to East Turkestan. And so, in addition to the population 
transfer to East Turkestan and Tibet and other areas to 
dominate the region, dilute the Uyghurs, and reduce us into an 
absolute minority in our own land, and for any Uyghur who is 
not happy with such policies of cultural genocide by the 
Chinese Government, the Chinese reaction is repression or just 
execution. So, that is what we are facing today.
    Thank you.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Li?
    Mr. Li. As to the first question, I personally don't value 
the dialogue because, if they keep it as a private session, 
they don't talk about it openly and publicly, I think the 
Chinese Government wouldn't feel the pressure in the 
international community, the pressure of justice, the pressure 
or morality. So, I think we should talk about it openly and 
publicly.
    And the second question, I think the United States 
Government should do more and, most importantly, speak up. If 
it keeps silent about the crimes, I think to some extent we are 
committing a crime too.
    And the third question, I don't think there is any human 
rights progress since 12 years ago because, apparently, the 
Falun Gong situation has not improved.
    Thank you.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Tsering?
    Mr. Tsering. In terms of the human rights dialogue, we 
believe that the administration needs to be open and 
transparent about what is really being discussed. Otherwise, it 
will become an opportunity for the Chinese to avoid 
international censure.
    In terms of whether human rights is a priority for the 
administration, the administration says it is, but we need 
concrete proof to say that it is really so. Whether the 
situation has worsened after PNTR, from the Tibetan perspective 
it has certainly worsened.
    Chairman Ros-Lehtinen. Thank you very much. Thank you for 
your answers.
    I am pleased to yield, for whatever time he wishes to 
consume, to Mr. Berman, the ranking member of our committee, 
for his questions.
    Mr. Berman. Well, thank you very much, Madam Chairman.
    There seems to be a consensus among all of you that a more 
vigorous, vocal expression of outrage at the Chinese 
Government's conduct vis-a-vis specific human rights cases and 
the general treatment of ethnic minorities and others, 
political dissidents, would be useful. Beyond that, I heard a 
specific reference to visas. And then, Mr. Genser talked about 
timetables, sort of guidelines, and consequences. Speak to the 
issue of consequences.
    Mr. Genser. Let me reiterate one of the things that Mr. Li 
said which I think makes a lot of sense, which is one of the 
things that the Congress could start to work on immediately, is 
legislation that would replicate the Sergei Magnitsky Act for 
the Chinese Government. You would be in a position to be able 
to say anybody who is involved or facilitating torture, 
wrongful imprisonment, disappearance, or a range of other 
crimes under international law will be put on a public list for 
the United States, an asset freeze, visa bans, et cetera.
    Just by gathering evidence from existing cases, I would 
imagine across all of these different situations we could come 
up with thousands of names that we could credibly verify that 
would be the first batch of people to be put on this kind of a 
list. At the end of the day, if the Chinese aren't going to 
listen to the complaints and they are not going to address 
them, then this would be a very clear potential consequence. 
So, let me just put that forward as a first idea that has some 
teeth to it.
    I also mentioned--and it is worth highlighting again--
awarding Liu Xiaobo the Congressional Gold Medal would be a 
pretty profound signal to the Chinese Government about U.S. 
concern.
    And then, just lastly, I will mention it isn't even 
exclusively about public outrage by the President or the 
Secretary of State, although at times I think is helpful. It is 
also about using the private threat of doing public things that 
I think can bring China to the table.
    So, for example, President Obama, I suggested that he meet 
with Geng He, Gao Zhisheng's wife. The administration, as far 
as I know, hasn't privately said to the Chinese, ``Unless we 
start to move on Gao Zhisheng's case, the President is going to 
do this. He is going to meet publicly, or meet and it will be 
made public, with Geng He.'' And use that private threat as an 
opportunity to see if we can see some progress on this 
particular case. This would be an aggressive way to get at the 
Chinese Government the strength of our concerns and our 
convictions. As far as I know, none of these kinds of things 
have happened.
    Mr. Berman. Yes. Thank you.
    Mr. Tsering, the Special Envoy for the Dalai Lama recently 
resigned from his position. We have had the opportunity to meet 
with him on many occasions. He is a very forceful, articulate, 
and reasonable and moderate individual, representing the Dalai 
Lama in the dialogue with China. That dialogue seems to be 
totally stalled. You have been part of the Special Envoy's team 
throughout the nearly 10-year duration of the dialogue 
progress. The Congress and the U.S. have been big proponents of 
the dialogue as a way to resolve differences and lead to a 
peaceful political situation for the Tibetans.
    How important is this dialogue with the Chinese, in your 
mind? What was the sticking point that led to its demise? What 
message regarding Tibet should the U.S. Government be sending 
now?
    Mr. Tsering. I believe the dialogue is a very important 
factor in having a lasting solution for the Tibetan issue. In 
terms of why the situation has remained so now, it is strictly 
because of China's lack of political courage to acknowledge 
that there is a Tibetan problem and to address it to the 
satisfaction of the Tibetan people.
    And therefore, we believe that the United States Congress, 
as well as the administration, which has called for a peaceful 
resolution of the Tibetan issue, needs to be more proactive in 
making the Chinese come to the table, because at the present 
the Tibetan leadership has also committed itself to resolving 
the issue through negotiations, and there is the need for that. 
But how we can go about it depends on the Chinese because right 
now instead of responding positively to the Tibetan initiative, 
there are voices within the Chinese leadership which are even 
calling for doing away with the framework of autonomous status. 
If that happens, there is no way people like the Tibetans or 
the Uyghurs can hope to achieve anything under this Communist 
government.
    Mr. Berman. Thank you.
    My time has expired.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    I am pleased to recognize the chairman of the Subcommittee 
on Africa, Global Health, and Human Rights, Mr. Smith of New 
Jersey.
    Mr. Smith. Thank you very much, Madam Chair.
    Yesterday, at the 10th anniversary of the founding of 
ChinaAid, led so brilliantly by Pastor Bob Fu, Gao Zhisheng's 
wife, Geng He, as you know, made yet another strong appeal for 
her husband, who has been tortured with unbelievable animosity 
by the Government of China. So, thank you, Mr. Genser, for 
again bringing up his case and how important it is that we 
raise that.
    You, especially, have talked about some new ideas. I think 
it is always good to be pursuing new ideas. But, as Mr. Li 
said, first and foremost, the President needs to speak out 
about China's human rights abuses. He has had both the Vice 
President and the President, Hu Jintao, here to the United 
States, has feted especially Hu Jintao with a state dinner and 
an infamous press conference, where an Associated Press 
reporter asked about human rights, and our President 
shamelessly said they have a different culture and a different 
political system.
    So, it was so bad that The Washington Post did an 
editorial, the banner headline of which was, ``President Obama 
Makes Hu Jintao Look Good on Rights.'' It was one of the worst 
statements, I think, and performances of this President. To the 
people back in China who are suffering, like Gao Zhisheng and 
others, and Liu Xiaobo, that had to have been demoralizing that 
the President just brushed this aside.
    But, Mr. Li, you asked that the President speak out. Hope 
springs eternal. Hopefully, he will speak out at some point. 
The gentlelady and I, we won't hold our breath.
    But let me just say this: We need to enforce the law. We 
have several laws on the books right now that go either 
inadequately enforced or totally unenforced.
    First of all, you mentioned visa bans. I offered 
legislation that became law in 2000 that said anyone who is 
complicit in forced abortion or forced sterilization ought to 
be banned, will be banned, shall be banned from admission to 
the United States. Under the Obama administration, four 
people--that is four, not 40, not 400--four people have been 
precluded a visa because of their complicity. There are no 
lists. I have asked that there be lists. There are no lists. We 
know who these people are. People inside of China know who 
their abusers are. And we ought to have an engraved invitation 
for them to come forward and say, ``This person is doing this 
atrocity against women and against children.''
    Some people like to talk about the Chinese program as 
family planning. It is child extermination. It is the 
exploitation of women in the cruelest fashion. We have a law 
called the Kemp-Kasten. It goes unenforced--unenforced. This 
administration reversed the Bush policy and the Reagan policy 
of saying, ``No money to any organization that supports or co-
manages a coercion population-control program.''
    On trafficking, there is no doubt--and the gentleman from 
California and I and the gentlelady worked so hard to ensure 
that the watch list on human trafficking that is put out by the 
State Department does not become a parking lot for abusers--
China clearly merits to be a tier III country susceptible to a 
whole array of sanctions, and it is not. It has stayed on the 
watch list for another year, even though the record is 
overwhelming that China has become a magnet for human 
trafficking, perhaps the worst in the world. I don't know of 
any country--and I wrote the trafficking law--that is worse 
than the People's Republic of China. They are on the third 
tier. So, that law goes unenforced.
    And then, the law that was authored by Frank Wolf, the 
International Religious Freedom Act, China has been a CPC 
country since the beginning of that law. So, the Bush 
administration I believe failed, and the Obama administration 
is failing miserably as well, to enforce the 18 prescribed 
sanctions, some of which are very real and very severe, not 
quite NTR loss, but very real. They go just glossed over, even 
though it is a CPC country. So, they did the naming, which is 
fine, but there is no penalty.
    Your thoughts? We need to enforce the law. We have laws 
that will make a difference. It is not just the President 
speaking out. And again, don't hold your breath on that one, or 
the Vice President. But let's just enforce the law. Your 
thoughts, please, again.
    Mr. Genser. Just briefly, Chairman Smith, you are a 
champion for China human rights and have been for decades. I 
concur with your assessment of the situation and the reality 
that there is actually a lot that we can do to enforce existing 
law, as well as bring into effect new laws to put serious 
pressure on China that sends a message that the United States 
is actually serious about human rights.
    Unfortunately, as we know--and this is not just this 
administration, but it is prior administrations--the United 
States has a whole range of interests in China. My biggest 
fear, as a human rights lawyer, however, is that unless human 
rights is made a priority, by definition, other so-called more 
pragmatic issues will always overcome human rights. I think 
that we need to see human rights as a core and fundamental 
value of the United States of America and imbue it into all 
that we are doing, and make it an affirmative priority.
    When you have, unfortunately, a situation where it is not a 
top priority of the President and the Secretary of State--
again, I agree they have said that it is a priority--but I just 
haven't seen the actions that enable me to agree with that 
statement and see that that is an actual conclusion.
    And again, I would like to see more coercive measures being 
taken. The Chinese are unabashed about their persecution of 
their own population and unapologetic, and, in fact, will 
publicly lie repeatedly. There has been no consequence for 
that, not just from the United States, but from around the 
world. I think that, collectively, we all need to do 
substantially better.
    Ms. Kadeer. Yes, it is really sad that the U.S. Government, 
the administration is not implementing the laws that, 
Congressman, you have just mentioned. Because of this, the 
Chinese Government sees that more as a green light to implement 
their own aggressive policies with their family planning. Of 
course, it has been in place for decades, and it is not only 
used against the Han Chinese, but also used against Uyghurs and 
other minority groups. Under even Chinese regulations that 
ethnic minorities, if it is under 10 million, they are not 
bound by these family-planning restrictions, but the Chinese 
Government aggressively imposes these restrictions on the 
Uyghurs, Tibetans, and other groups. So, this is another weapon 
for the Chinese Government to really make us even a smaller 
minority now in our own country.
    In addition to that, the Chinese Government has been 
transferring tens of thousands of Uyghur young, marriage-age 
women out of East Turkestan to eastern Chinese sweatshops in 
eastern Chinese provinces to work. This is like an exchange of 
population. We see this as a form of not just a cultural 
genocide, but really to aggressively assimilate and eventually 
eliminate the Uyghur people as a Uyghur people.
    So, it is our hope that the administration will pursue and 
implement the laws that can really pressure China on these 
heinous practices.
    Thank you.
    Mr. Li. Mr. Smith, thank you. Mr. Smith, could I beg your 
pardon as to your question? Please repeat it. Could you repeat 
it?
    Mr. Smith. Sure. The question, you, yourself, raised the 
importance of speaking out.
    Mr. Li. Yes.
    Mr. Smith. We have numerous laws already on the books that 
go unenforced. Some are enforced to a small extent, but mostly 
unenforced.
    One would be the CPC designation under the International 
Religious Freedom Act. China has been so designated. It is an 
egregious violator of religious freedom, whether it be Falun 
Gong, Uyghurs, underground Christians, Catholics. It is across 
the board.
    Secondly, on trafficking, this year, again, China got a 
pass. We punted as a government and did not designate China as 
a tier III violator, which is the worst category, susceptible 
to a whole array of sanctions. There is no doubt that China 
warrants it--no doubt. The evidence is overwhelming. Even how 
they mistreat the North Koreans--and I will yield in a second 
because I am out of time--how they mistreat the North Koreans, 
who come across, and traffic those poor women or send them back 
to a cruel fate in North Korea.
    The third has to do with a current, existing visa ban where 
any person involved or who is complicit in the forced abortion 
policy of China, by our law, since 2000, cannot get a visa. 
Under the Obama administration, four people have been so 
precluded a visa.
    So, there is, then, the Kemp-Kasten language that says here 
are the words; this is the law: Any organization that supports 
or co-manages a coercive population-control program cannot get 
U.S. funding. That has been breached as well.
    Mr. Li. Thank you, Mr. Smith, and thank you for your 
efforts.
    Anyway, I believe that the U.S. Government, the White 
House, should be looking to organ harvesting crime, because it 
is so horrible, and speak out against this crime.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Tsering. Congressman, we concur with your position that 
laws that are there need to be implemented if China is to 
understand what the United States stands for. For example, in 
the case of Tibet, Congress has mandated that there be a 
consulate in Lhasa. To date, nothing has happened about that, 
and that is something that ought to be done.
    In terms of access, in our recommendation what we have 
said, China doesn't respect the diplomatic principle of 
reciprocity. China doesn't allow the United States' diplomats 
or other government officials access to Tibetan areas to get 
the real situation.
    But, on the other hand, China always sends or the United 
States provides visas to Chinese officials to come to the 
United States and to propagandize about Tibet and other issues 
freely without any qualms. So, the Congress should seek 
restrictions on these, so that there is this principle of 
reciprocity.
    Mr. Smith. And just a final 30 seconds?
    Chairman Ros-Lehtinen. Gosh, Mr. Smith, maybe we will----
    Mr. Smith. I can't get a visa to China.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. My goodness, Madam Chairman, he must have 
given you a bucket-load of chocolate. [Laughter.] I thank the 
chair, and I welcome our panel.
    I just want to say I certainly share the passion about 
human rights with my colleague from New Jersey, but I certainly 
do not share in the judgment that somehow the President of the 
United States and his administration have somehow been playing 
a backseat on this issue. I don't think that is true. I think 
it is sometimes easy for us here in Congress to opine about 
human rights as opposed to those who have the responsibility 
for sometimes executing policy when it comes to specific cases.
    We just had a success story in China, actually, in getting 
a dissident out of China, and I think it involved very direct 
face-to-face statements by the Secretary of State, who was 
visiting at the time, and back-room negotiations between our 
Embassy officials and foreign ministry officials in the 
People's Republic of China, that ultimately led to getting the 
gentleman and his family out of China.
    Now sometimes we have to ask ourselves, are we more 
interested in making a point and using this platform to do that 
or are we sometimes more interested in trying to have a result? 
And so, I just say in defense of the President, I think he is 
as passionate and committed to human rights as any of us, but 
he has what we don't have, which is the responsibility of 
executing policy.
    That doesn't mean we can't and shouldn't continue to press 
on that regard, whoever is in the White House, because I think 
human rights has to be enshrined as a cardinal value, an 
American value and, indeed, a universal value, and we have to 
advocate for it, even when it is inconvenient.
    Let me ask, Mr. Li, you seemed to indicate, if I understood 
your testimony correctly, that you were skeptical about the 
value of the dialogue; it wasn't going to produce much. Did I 
get that right?
    Mr. Li. Yes. Yes, I doubt, if they keep it as a private 
session.
    Mr. Connolly. But here is my concern about that: I mean, we 
even talked to the Soviets in the Cold War, at the height of 
the Cold War, about human rights, with sometimes having some 
effect on Soviet Jewry.
    And we implemented laws, like Jackson-Vanik. Hopefully, we 
will implement some more, as Mr. Genser indicated, in terms of 
Magnitsky, if we are going to do PNTR with now Russia.
    If there is no dialogue, how do we effectuate change in 
policy? How do we help individuals and groups of individuals 
protect their human rights if we are not at the table pressing 
that other party?
    Mr. Li. Thank you.
    Because from my point of view, I notice that the Chinese 
Government takes the human rights dialogue itself as progress 
and, actually, I didn't see any progress or change of the 
Chinese human rights situation.
    Mr. Connolly. Do you believe that the Chinese are 
impervious to international opinion, international pressure on 
this subject?
    Mr. Li. I think if we condemn the Chinese Government 
publicly and openly, it will feel the pressure and at least do 
some change.
    Thank you.
    Mr. Connolly. Mr. Genser, what is your view about the value 
of dialogue with the Chinese Government on this subject?
    Mr. Genser. Well, I think Mr. Li and I have a disagreement, 
at least in a small respect. I think, to a large extent, we 
agree that the dialogues themselves are an opportunity taken by 
the Chinese Government to emphasize process rather than 
substance. So, they issue press releases about how wonderful it 
is that they are engaging in dialogue and that should be the 
end of the discussion.
    And I don't think dialogue alone is sufficient. This is why 
I talk about the need for benchmarks, timelines, and 
consequences out of these dialogues. It can't be the case that 
we just keep talking and talking and talking, and we don't see 
changes to their laws; we don't see changes in their conduct, 
and we don't see them responding to particular concerns that we 
raise.
    Mr. Connolly. But, of course, Mr. Genser, it is a bit of, 
not that you are doing this, but, I mean, it is a little bit of 
a straw man to say negotiations alone aren't going to be the 
answer. Who is arguing that? Who in the U.S. foreign policy 
establishment or in this administration or in this Congress is 
saying negotiations are sufficient--I'm sorry--dialogue is 
sufficient?
    Mr. Genser. No, I mean, I agree with you that isn't 
anyone's public position, but I have to say--and I am very much 
a human rights partisan and not a political one in any respect, 
and so I just call it as I see it--I have been disappointed, 
unfortunately, in this administration's willingness on a range 
of issues on Chinese human rights to follow through on a range 
of issues. And so, I will give you an illustration.
    Gao Zhisheng I have talked about extensively. Geng He was 
in town around the time of the Xi Jinping visit. We requested a 
meeting either with Secretary Clinton or the President or the 
Vice President, and neither of them had time on their 
schedules. Now I understand they are busy people. But, 
unfortunately, the President, in the run up to the Xi Jinping 
visit, met with four experts on China and Chinese rights, but 
none of them were actual victims of Chinese human rights 
abuses. And so, those kinds of symbolic gestures, or lack of 
symbolic gestures, speak volumes.
    I have to say that I really wish, for example, this 
President would spend more time with dissidents from different 
countries around the world and meet with them, and give them 
the platforms that merely a meeting with the President in the 
Oval Office would have. And so, I just think that we are really 
missing something if we don't look at the public diplomacy 
element that the President and the Secretary of State can play 
on these kinds of issues.
    They have done some. I think they need to do substantially 
more, particularly when I know that they have raised, for 
example, Liu Xiaobo's case privately to the Chinese Government. 
His wife remains under house arrest and has for 22 months.
    So, my question publicly, and what I have said directly to 
the administration, is: What are you going to do now that you 
have raised these issues privately and quietly? You haven't 
gotten a response from the Chinese Government. What is the next 
step, right? Because 22 months under house arrest in Liu Xia's 
case without any due process of law whatsoever is pretty 
egregious conduct. And so, if you don't get somewhere with the 
private request, what do you do next? Unfortunately, I haven't 
seen what it is going to do next, although I have been asking 
repeatedly.
    And so, these are illustrative examples to me of concerns 
that I have about how we need to follow through on our 
publicly-stated concerns.
    Mr. Connolly. Thank you. Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Connolly.
    Mr. Rohrabacher, the chairman of the Subcommittee on 
Oversight and Investigations.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. And 
thank you, Madam Chairman, for doing your part in sending the 
right message that America needs to be sending to dictators 
throughout the world, and especially the world's worst human 
rights abuser, which happens to be China.
    I am very dismayed at this struggle, which I have been 
witnessing close-up for 30 years. Let me just note that, under 
the Reagan administration, which I was proud to serve as 
Special Assistant to President Reagan as well as one of his 
speech writers, we held dialogue with countries, but we had 
lots of dissidents in to see the President. There were people 
who came from China and met with President Reagan in the Oval 
Office. There were people from Eastern Europe who came and met 
with President Reagan in the Oval Office and high-level 
officials. I personally met with dissidents in the Soviet Union 
during that time period.
    Let's just note that the double-standard that I see right 
now for China seems to be, I mean, it is overwhelming to me as 
an individual. There has been great reform in Russia. I mean, I 
think it is a wonderful thing. And by the way, Ronald Reagan 
did not accomplish the great changes that have taken place in 
Eastern Europe and in Russia, he did not accomplish that by 
opening up more trade.
    In fact, it was just the opposite. We never gave Most 
Favored Nation status to the Soviet Union, and we had a whole 
totally-different approach. We were actually supporting the 
dissident movements. It would be the equivalent of today our 
Government would be providing help, as we should be, to the 
Uyghurs or to the Tibetans. That is what brought an end to the 
Cold War with Russia, at that time the Soviet Union. And 
hopefully, it would bring an end to this antagonistic, 
fascistic regime in Beijing and open a door for more freedom 
and peace in that part of the world.
    Let me note that it is disturbing to see that we are saying 
to Russians, even after all of their reform, that they can't 
join the WTO without certain human rights commitments. That is 
a good thing. But we are not enforcing any of those commitments 
on China. I mean the double-standard between Russia and China 
is so glaring that it is giving a bad message to both the 
Russian Government and to the Chinese Government.
    So, let me ask a question. I am going to get one question 
here, and that is, of course, let me note that after Ronald 
Reagan left, Herbert Walker Bush was President of the United 
States, our Republican, who, again, this body voted to 
eliminate Most Favored Nation status for China after Tiananmen 
Square twice, and Herbert Walker Bush vetoed that. So, this 
isn't a Democrat-versus-Republican. This is Americans who are 
proud of our values and other Americans who would rather do 
business and make sure we have short-term profit.
    But I would like to ask the panelists this. I have got 1\1/
2\ minutes to do it. What has happened in the past when we 
allow monstrous regimes to get away from being confronted by 
their crimes against their own people, quite often, they start 
committing crimes and using their pressure and arrogance 
against countries, other countries, to do their bidding.
    I just mention that President Ma in Taiwan isn't even 
mentioning the Falun Gong practitioner who is a Taiwanese 
citizen, who is now being held in prison in mainland China. 
Have you any examples where people from your communities have 
actually suffered attacks or repression in other countries 
outside of China by the Chinese Government? And that is for the 
panel.
    Chairman Ros-Lehtinen. If you could repeat that last 
question?
    Mr. Rohrabacher. The question is, basically, do you know of 
examples in your communities, whether the Uyghurs or the 
Tibetans or human rights people from China itself, do we have 
examples where in other countries the Chinese dictatorship in 
Beijing is reaching out of their own country to try to expand 
their repressive behavior against those communities in other 
countries, even maybe the United States?
    Ms. Kadeer. Yes, the Chinese Government's pressures and 
threats are very pervasive, not only in East Turkestan, but the 
long arm of China is reaching China's neighboring countries and 
other countries, especially in pressuring the extradition of 
Uyghur activists who fled into those countries.
    One example is the deportation of 20 Uyghurs by the 
Cambodia Government in December 2009 back to China, where they 
sought asylum. They were deported back to China just before the 
visit of China's Vice President Xi Jinping.
    And also, we have numerous examples of Uyghurs being 
deported by Kazakhstan, Kyrgyzstan, and Uzbekistan. For 
example, Ershidin Israil, a Uyghur activist who fled 
Kazakhstan, was deported back to China by the Kazakh 
Government. And also, Huseyincan Celil, a Uyghur Canadian 
citizen who visited his wife's family in Uzbekistan, he was 
kidnapped by the Uzbek Government, sent back secretly to China, 
where he is facing a life sentence today. The Canadian 
Government could do little to really get even consular access 
to him. These are just a couple of examples.
    The only Uyghurs who are safe, refugees, if they have fled 
to America or Europe. Otherwise, China is able to pressure 
other countries to send them back. Once they are back to China, 
they all disappear for good. Then, we have no information as to 
what happened to them.
    Thank you.
    Mr. Rohrabacher. Madam Chairman, thank you for holding this 
hearing. And again, we need to demonstrate what our real values 
of the American people are, and you are doing your part. 
Thanks.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Rohrabacher.
    Mr. Sherman, the ranking member on the Subcommittee on 
Terrorism, Nonproliferation, and Trade, is recognized.
    Mr. Sherman. President Obama met with the Dalai Lama last 
July at the White House. But, in general, we have not done 
enough to push the Chinese on human rights. In a way, American 
values are being held hostage by the trading relationship that 
we have agreed to with the Chinese. The Chinese have total 
access to the U.S. market. No matter what they do, they have 
total access to the U.S. market. As Dana Rohrabacher pointed 
out, the events occurred at Tiananmen Square, and they didn't 
lose a slight bit of access to the American market.
    In contrast--and this is disguised--our access to the 
Chinese market is entirely dependent upon Chinese Government 
decisions. Whether they buy the Airbus or the Boeing plane, 
that is not a decision made by airline officials who examine 
the planes carefully. That is a political decision. And 
America's jobs are held hostage by the Chinese Government. As 
long as we are in a circumstance where their access to our 
market is unlimited and our access to their market is at the 
grace of their government, then American values will be held 
hostage.
    Mr. Tsering, what lessons should the world draw from the 
tragic self-immolations of Tibetan monks and nuns and other 
religious figures? Do you know of any evidence to support the 
Chinese Government's charge that the immolations were 
encouraged by groups outside China?
    Mr. Tsering. Congressman, thank you for your question.
    As you can see from the chart over there, that is a list of 
names of Tibetans who have committed self-immolation so far. 
One single message, if we can get out of it, is that the 
Tibetan people are not satisfied under the current Chinese 
rule. They are also looking for the international community's 
assistance, assistance from the Chinese people, assistance from 
everywhere, to save them from this present situation.
    It is very encouraging that there are governments who have 
issued statements. But, more than that, what we need is 
concrete action. For example, at this Bilateral Human Rights 
Dialogue, the United States would have raised the issue of 
self-immolation. Now the Congress should be let known what has 
been the Chinese reaction and what the United States would do 
in the face of such a reaction from the Chinese side. So, 
therefore, I think this is related to the larger issue of why 
there is a problem in Tibet, and the Chinese have to answer 
that.
    Mr. Sherman. Ms. Kadeer, China is justifying its policy 
with claims that the Uyghurs and those who assert Uyghur rights 
are somehow affiliated with international Islamic extremist 
terrorism. What are the facts, and are there any Uyghur groups 
that receive support from al-Qaeda, from Saudi Arabia, or from 
Iran? I realize putting Saudi Arabia in that list is for my own 
information and is not designed to say that there is an 
equivalency of those three.
    Ms. Kadeer. After the tragic events of the September 11th 
terrorist attacks in the United States, and after the beginning 
of the global war on terrorism, the Chinese Government used 
both of them to its advantage to demonize and label the Uyghur 
people's legitimate opposition to China Government's brutal 
rule in the region as terrorism and fabricate stories that 
alleged Uyghur groups had links with international terrorism, 
to justify their heavy-handed rule in the region.
    And so, we believe the Uyghurs actually became a victim of 
even the acts of Osama bin Laden and his terrorist organization 
because we happen to be Muslims, and China used that to its 
vast advantage to demonize us.
    One example is the unrest on July 5th of 2009, which began 
peacefully by the Uyghurs taking to the streets to protest 
against the mob killing of the Uyghurs in Guangdong province. 
But that day, the Chinese security forces opened fire and 
killed hundreds of them. They even turned off the street lights 
at night from 9 o'clock p.m. to 3 o'clock a.m. and killed so 
many of the Uyghurs.
    And the Chinese Government, in addition to accusing some 
Uyghurs as terrorists, also accused me as a terrorist. China 
continues to accuse me.
    Mr. Sherman. If I can interrupt, my two specific questions 
there: Are Uyghur groups receiving support from Iran, and are 
Uyghur groups receiving support from Saudi Arabia?
    Ms. Kadeer. And none of the Uyghur groups ever received any 
money or financial aid from either Iran or Saudi Arabia. 
Actually, both countries are allies of China. So, they would 
never support any Uyghurs for any cause, and they have never 
supported us in any fashion.
    Mr. Sherman. Thank you for your specificity.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Sherman.
    And now, Mr. Royce, the chairman of the Subcommittee on 
Terrorism, Nonproliferation, and Trade, is recognized.
    Mr. Royce. Thank you, Madam Chairman.
    I wanted to ask Mr. Genser a question. We have, over the 
last few months, seen a crackdown by the North Korean leader. 
Kim Jong Un really has toughened punishment for anybody who 
attempts to flee from North Korea into China. And so, those 
refugees who are repatriated are tortured, often killed, shot. 
I have seen some of the tapes of this.
    One of the questions here is the complicity, the way in 
which Beijing has assisted in repatriating those North Korean 
refugees. Now, in Seoul, because of the candlelight vigil, it 
has become a very popular cause to become more aware of what is 
happening to North Korean refugees. And you had four South 
Korean human rights activists who were working in China who 
were held, and because of the pressure, were released by China. 
I wanted to see your thoughts about diplomatic pressure from 
Seoul and whether or not you think that is what led to the 
release of these South Korean human rights activists.
    Mr. Genser. Thanks so much, Congressman Royce, for the 
question.
    I actually happen to do a lot of work, also, on North Korea 
human rights and know you have been a real leader in the 
Congress on North Korea human rights for many years. So, thank 
you for that.
    China's repatriation of North Korean refugees to North 
Korea is a flagrant violation of its obligations under the 
Refugee Convention. By definition, at a minimum, those who flee 
from North Korea without permission are so-called refugees sur 
place because it is actually illegal under North Korean law to 
leave the country without permission, and it is punishable 
potentially by the death penalty. So, the moment they have left 
North Korea to enter China, they are at risk of serious 
persecution upon their return.
    So, clearly, much more pressure needs to be put on China 
with respect to their complicity. And with respect to the four 
South Koreans and their activities inside China, I think China 
had to make a relatively, I hope, easy decision as to whether 
they wanted to have the spotlight of international pressure 
placed upon them.
    Mr. Royce. Well, that was my point. That spotlight of 
international pressure. What I want to check on is whether or 
not we could look at a longer-term strategy. Is there a way 
diplomatic pressure can be placed on China to allow the U.N. 
High Commissioner for Refugees' Office in Beijing to begin its 
policy of enforcement to see if we can't get safe passage to 
South Korea of those North Korean refugees?
    Mr. Genser. Yes, I mean, I think that that is precisely the 
direction we need to go. I think that South Korean pressure 
mattered a lot. The mobilization of the South Korean public was 
noted, I am sure, by Beijing and had to play a key role in the 
decision.
    The challenge has been usually you don't have third 
parties.
    Mr. Royce. Right, but our problem right now is they have 
not bowed to any pressure in terms of returning or allowing 
North Korean refugees safe passage. They have bowed to the 
pressure from North Korea to return those refugees. And so, 
wider recognition in the international community and more 
pressure from NGO groups and more attention to this issue I 
think is necessary in order to turn up the heat.
    I had a question for Mr. Li pertaining to the question of 
how pervasive the use of torture is in China's prisons. I read 
your account, your written account, of what transpired over the 
period of the months after months that you were held before 
your trial and then after your trial in terms of the torture 
that you endured and the types of torture applied. I wanted to 
ask you about how pervasive you believe that may be.
    I also wanted to ask you about how concerned young Chinese, 
who are pretty open on the internet in terms of their 
discussions about the desire for more freedom of association 
and freedom of expression, how concerned they should be about 
the law on disappearances passed by the National People's 
Congress in March. Mr. Li?
    Mr. Li. Thank you.
    Actually, to your first question, I would say anyone who 
did not transform or be transformed would be tortured by any 
means.
    Mr. Royce. And how about your concern about the law on 
disappearances?
    Mr. Li. The law on----
    Mr. Royce. On disappearances, which you might be familiar 
with, but it was passed by the National People's Congress in 
March.
    Mr. Li. Sorry, I didn't know much about----
    Mr. Royce. Then, I will ask you, if I could, Madam 
Chairman, I will just ask you one final question. To what 
extent does the Chinese judiciary actually function 
independently from political interference? To what extent is 
the judiciary system independent?
    Mr. Li. I don't think they are separate because they are 
all under the leadership of the Chinese Communist Party.
    And as to the disappearance act, frankly, I don't know much 
about it, but from my own experience I think they never mind to 
make somebody disappear.
    Mr. Royce. As you say, you were held for 8 months.
    Mr. Li. Yes.
    Mr. Royce. And your mother passed away, partly from worry, 
during that period of time.
    Mr. Li. Yes.
    Mr. Royce. She was only 60, I think, at the time.
    Mr. Li. Yes.
    Mr. Royce. And you had no awareness of that or her funeral 
because at that point in time, prior to your trial, you simply 
had disappeared.
    Madam Chairman, thank you very much for this hearing.
    Mr. Li. Thank you.
    Chairman Ros-Lehtinen. Thank you so much.
    And we have given members more time because of the 
translation. So, don't worry about that.
    Mr. Poe, the vice chair of the Subcommittee on Oversight 
and Investigations.
    Mr. Poe. Thank you, Madam Chair.
    China, who are these folks? Well, they are the people who 
steal our trade secrets. They steal our patents. They invade 
our internet and go to our Web sites. They are one of the 
nations that refused to take back convicted Chinese citizens 
that are convicted in American jails. They don't take them 
back, as they should according to American law. They torture 
and they kill their own people. And China is a source, transit, 
and destination country for sex, labor, and organ trafficking, 
according to the 2012 Trafficking Persons Report, compiled by 
our State Department.
    In fact, where I live down in Texas, in Harris County, 
Texas, there are 20 to 30 illicit massage parlors, mostly run 
by the Chinese. It is sex slavery. These investigators have 
found wire transfers going in and out of China from owners of 
these parlors. China doesn't, to me, seem to care much about 
human trafficking. They are on the tier III watch list for 8 
years. They ought to be on tier III, where the worst of the 
worst offenders are, but China is not there.
    The State Department, who determines what tier countries 
get on, admits that the only reason China got a waiver from 
tier III is not because of its human trafficking ability or 
crackdown, but it has got a paper of policy saying that we 
don't like human trafficking. China knows that they don't 
enforce it. We know they don't enforce it, and the State 
Department doesn't seem to want to deal with the sanctions on 
China as a tier III determination.
    I think we ought to quit making excuses for China. The 
State Department should, I think, quit giving them cover by 
ignoring human rights violations. The State Department, God 
bless them, they want to talk, talk, talk. That is what they 
do. They are diplomats. One thing I have never been called is a 
diplomat, but they are diplomats. And they want to talk about 
all these issues with the Chinese. But, you know, like my 
grandfather used to say, when all is said and done, more is 
said than done. And it seems that all of this continues to go 
on.
    China eventually needs to suffer the consequences for all 
of these human rights violations. Mr. Genser, what do you think 
those consequences ought to be?
    Mr. Genser. Well, let me just reiterate--and, Judge Poe, 
Congressman, I wanted to thank you for your remarks--I think we 
need to be as aggressive with the Chinese as they are with us. 
They are unapologetic and very clear in what they are trying to 
do to their own people in order to maintain their grip on 
power.
    Unfortunately, I suppose one of the benefits of a 
democracy, and one of the challenges of a democracy, is we have 
an open debate in our country about what our priorities are and 
how much human rights should factor into our concerns about 
China. And we have companies that want to trade and do business 
and want to de-emphasize human rights. This is all healthy in a 
democracy.
    Nevertheless, I do think that human rights is a fundamental 
value of our country, and human freedom is enshrined in our 
Declaration of Independence and our Constitution. So, I think 
it is time, as Congressman Smith was saying, to enforce the 
existing laws that are in place.
    I think moving China to be a tier III country, as you 
mentioned, in human trafficking absolutely should happen. There 
is a range of sanctions because China is a country of 
particular concern under the International Religious Freedom 
Act that should be imposed. I would like to see a Sergie 
Magnitsky Act for China where thousands of Chinese Government 
officials who are complicit in torture and wrongful 
imprisonment and a range of other crimes against humanity can 
be imposed on the Chinese Government.
    All these could be used in an interim process as clear 
threats to the Chinese to see if we can influence their 
behavior. I don't know necessarily that we have to start doing 
all this overnight, but we need to send a clear message from 
the top of the government, from the President of the United 
States and the Secretary of State, that our relationship with 
China is going to change, and that unless it starts to change, 
unless some of these fundamental concerns of our people start 
to be addressed in a meaningful and systematic way, that we are 
going to go down the road of starting to directly address the 
kind of consequences that we are all discussing here today.
    Mr. Poe. Thank you.
    Mr. Li, I have one final question for you regarding the 
Falun Gong. How many folks in the Falun Gong have been killed 
because of the Chinese Government's policy? And is the 
situation with the Falun Gong in China getting worse, getting 
better? Where is it headed, in your opinion, the persecution?
    Mr. Li. Okay. Thank you.
    Reportedly, over 3,000 Falun Gong practitioners have been 
killed, and this is not complete.
    As to the second question, I think the situation is 
deteriorating. I haven't seen any progress of Falun Gong 
practitioners.
    Mr. Poe. Well, let me ask you this: Is the persecution 
increasing against the Falun Gong? Or is it diminishing?
    Mr. Li. It is increasing, I believe.
    Mr. Poe. All right. Thank you, Madam Chair.
    Mr. Li. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Diplomat, 
Ambassador Poe. [Laughter.] Mr. Bilirakis, my Florida 
colleague, is recognized.
    Mr. Bilirakis. Thank you very much, Madam Chair. I 
appreciate it. Thank you so much for holding this hearing as 
well.
    I have a question for Ms. Kadeer. I hope I didn't 
mispronounce that name. I apologize.
    But, Ms. Kadeer, I understand that you met with President 
George W. Bush while he was in office at least once and, also, 
I believe you met with Secretary Rice as well. Have you had any 
opportunity, have you been able to arrange a meeting with 
President Obama or Secretary Clinton? And elaborate on that, 
but I would like for you to answer that question first.
    Ms. Kadeer. Yes, I was able to meet with President Bush, 
actually, twice during his administration, the first time in 
Prague, the second time in the White House. So, both of the 
meetings sent a strong message to the Chinese Government that 
the U.S. was deeply concerned with the Uyghur rights issues.
    And also, with regard to the situation of my children at 
the time, China was very careful because of these meetings. And 
also, there were frequent visits from the U.S. Embassy to our 
homeland.
    And actually, I was able to honorably meet with First Lady 
Laura Bush.
    Obviously, I would love to have the honor to meet President 
Obama to speak what is in my heart regarding the human rights 
violations, but so far I have not had the honor. Of course, I 
am available, and I also requested meetings many times in the 
past, but that has not materialized.
    I also want to meet with Secretary Clinton, especially to 
talk about the case of my children, but still----
    Mr. Bilirakis. Why do you think that is the case?
    Ms. Kadeer. I am not exactly sure why, but my hope is, as a 
mother, to talk to another mother regarding my children's case, 
but that has not happened.
    And I certainly hope I would have the opportunity to meet 
President Obama eventually. My thinking is probably that 
President Obama doesn't want to offend the Chinese Government, 
and that is why he probably decided not to meet with me and the 
other people.
    Mr. Bilirakis. Okay. Thank you very much. Thank you, Madam 
Chair. I yield back the balance.
    Chairman Ros-Lehtinen. Thank you very much.
    Thank you for bringing up that terrible human cost that 
comes with being a leader for freedom and democracy. Thank you 
for excellent testimony, and especially for giving us some very 
valuable suggestions about what we can do to press for freedom 
and democracy and openness and fairness for the people of China 
who hunger for freedom. Thank you so much.
    With that, our committee is now adjourned.
    [Whereupon, at 11:54 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




[Note: The material submitted for the record by Mr. Bhuchung K. 
Tsering, ``Self-Immolations in Tibet'' and the ``Summary of Human 
Rights Abuses in Tibet in 2012,'' is not reprinted here due to length 
limitations but is available in committee records.]

                                 <all>

</pre></body></html>
